             Audit Report



Work Continuing Disability Reviews
 for Disabled Title II Beneficiaries
           with Earnings




       A-01-12-12142 | March 2014
MEMORANDUM


Date:      March 12, 2014                                                     Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Work Continuing Disability Reviews for Disabled Title II Beneficiaries with Earnings
           (A-01-12-12142)

           The attached final report presents the results of our audit. Our objective was to determine
           whether the Social Security Administration was evaluating earnings reported to the Master
           Earnings File for disabled individuals receiving Title II benefits.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Work Continuing Disability Reviews for Disabled Title II
Beneficiaries with Earnings
A-01-12-12142
March 2014                                                                 Office of Audit Report Summary

Objective                                   Our Findings

To determine whether the Social             We estimate that about 119,500 disabled beneficiaries were
Security Administration (SSA) was           overpaid approximately $1.02 billion because of work activity.
evaluating earnings reported to the         SSA identified approximately $872.58 million of these
Master Earnings File (MEF) for              overpayments to about 107,500 beneficiaries; however, we estimate
disabled individuals receiving Title II     SSA did not detect approximately $146.43 million in overpayments
benefits.                                   to about 13,900 beneficiaries. (We estimate that, as of April 2014,
                                            SSA recovered about $489.37 million in overpayments.)
Background
                                            Of the 275 beneficiaries in our sample,
An individual is considered disabled
under Title II of the Social Security Act      60 (22 percent) were overpaid $511,680 because of work
if he/she is unable to engage in any            activity; and
substantial gainful activity (SGA)
because of a medically determinable            215 (78 percent) were not overpaid despite having earnings
impairment that (1) can be expected to          posted to the MEF.
result in death or (2) has lasted (or can
be expected to last) for a continuous       Our Conclusion
period of at least 12 months.
                                            Despite the overpayments, SSA made improvements to the
SSA defines SGA as work activity that       work-related continuing disability review (CDR) process. The
involves significant physical or mental     average overpayment was $8,114 for 9 months (whereas the
activities performed for pay or profit.     average overpayment was $18,331 for 19 months in our
                                            2009 audit). Therefore, SSA should continue allocating resources
For our review, we identified               to timely perform work-related CDRs and assess all overpayments
27,383 disabled Title II beneficiaries in   resulting from work activity.
current pay status as of July 2012
(from 1 Social Security number
segment) with earnings reported on the
MEF between 2007 and 2011 that may
affect their entitlement to benefits. We
randomly selected 275 cases from this
population for detailed analysis.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
     Detecting and Evaluating Unreported Earnings ........................................................................1
     Work Incentives .........................................................................................................................2
     Prior Audit Reports ....................................................................................................................3
Results of Review ............................................................................................................................4
     Beneficiaries Overpaid Because of Work Activity....................................................................4
     Beneficiaries with Undetected Overpayments ...........................................................................5
     Steps SSA Took to Improve Work CDRs..................................................................................6
     Comparison of Sample Results of OIG Audits ..........................................................................7
Conclusion .......................................................................................................................................8
Agency Comments ...........................................................................................................................8
Appendix A – Background ......................................................................................................... A-1
Appendix B – Status of Recommendations from Prior Audits .................................................. B-1
Appendix C – Scope and Methodology ..................................................................................... C-1
Appendix D – Beneficiaries Not Overpaid Despite Earnings .................................................... D-1
Appendix E – Agency Comments ...............................................................................................E-1
Appendix F – Major Contributors............................................................................................... F-1




Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)
ABBREVIATIONS
AERO                 Automated Earnings Reappraisal Operation

CDR                  Continuing Disability Review

CDREO                Continuing Disability Review Enforcement Operation

C.F.R.               Code of Federal Regulations

DCF                  Disability Control File

EXR                  Expedited Reinstatement

FY                   Fiscal Year

GAO                  Government Accountability Office

MEF                  Master Earnings File

OIG                  Office of the Inspector General

POMS                 Program Operations Manual System

SGA                  Substantial Gainful Activity

SSA                  Social Security Administration

SSN                  Social Security Number

U.S.C.               United States Code




Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) was
evaluating earnings reported to the Master Earnings File (MEF) 1 for disabled individuals
receiving Title II benefits.

BACKGROUND
SSA pays disability benefits to eligible individuals under Title II of the Social Security Act. 2 An
individual is considered disabled under the Social Security Act if he/she is unable to engage in
any substantial gainful activity (SGA) because of a medically determinable impairment that
(1) can be expected to result in death or (2) has lasted (or can be expected to last) for a
continuous period of at least 12 months. 3

SSA defines SGA as work activity that involves significant physical or mental activities
performed for pay or profit; 4 and the Agency has criteria for determining an individual's ability
to engage in SGA. 5 For example, for Calendar Year 2013, SSA generally considered earnings of
$1,040 per month to reflect SGA. 6

Detecting and Evaluating Unreported Earnings
Although disabled beneficiaries are required to report work activity, 7 they do not always do so.
Therefore, SSA uses its Continuing Disability Review Enforcement Operation (CDREO) to
compare earnings reported on its MEF to the benefit rolls. CDREO identifies potentially
unevaluated substantial earnings that were reported on the MEF and that may affect benefit
entitlement and alerts SSA to review the earnings. SSA must perform a work-related continuing
disability review (CDR) when earnings indicate the beneficiary has returned to work at the SGA
level. 8




1
    The MEF is a repository of earnings information maintained by SSA.
2
    Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
3
    Social Security Act § 223(d)(1), 42 U.S.C. § 423(d)(1).
4
    20 C.F.R. § 404.1572.
5
    SSA, POMS, DI 10500.000 (March 28, 2013).
6
  SSA, POMS, DI 10501.015 B (November 8, 2012). Special rules apply to individuals who are blind. We did not
include blind individuals in our review.
7
    20 C.F.R. § 404.1588.
8
  20 C.F.R. § 404.1590(b)(5). Because earnings posted to an individual’s record may include amounts that are not
related to current work (such as, bonuses, termination pay, and sick pay), SSA must evaluate the earnings to
determine whether they represent earnings from SGA performed after entitlement to disability benefits began.



Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)                                        1
In 2004, the Agency implemented an automated system called eWork to assist in controlling and
processing work-related CDRs. This automated system is a structured, policy-driven automation
tool that applies the principles of a work-related CDR in a logical sequence.

Work Incentives
Congress amended the Social Security Act with the intent to provide disabled beneficiaries
incentives to return to work. When SSA conducts a work-related CDR it must consider how
using work incentives may affect disability benefits.

Disabled beneficiaries are granted one trial work period during a period of disability in which
they may test their ability to work while still receiving benefits. 9 If SSA determines a
beneficiary continues to be disabled after the trial work period ends, benefits can continue being
paid during an extended period of eligibility. 10 During this period, SSA will pay benefits for any
month in which the beneficiary does not engage in SGA. If the beneficiary engages in SGA at
any time after the extended period of eligibility, their eligibility for Title II disability benefit
payments ends. However, individuals whose entitlement ends because of SGA may become
entitled to benefits again if they are no longer engaging in SGA and are still disabled (see
Appendix A for additional background information).

Other work incentives SSA must consider during a work-related CDR include the following.

      Subsidy – An employer may subsidize the earnings of an employee with a serious medical
       impairment by paying more in wages than the reasonable value of the actual services
       performed. When this occurs, the excess is regarded as a subsidy rather than earnings. 11

      Impairment-Related Work Expenses – The cost of certain items and services a disabled
       beneficiary needs to work can be deducted from earnings in determinations of SGA, even
       though such items and services are also needed for normal daily activities. 12

      Unsuccessful Work Attempt – Earnings are disregarded from work attempts of 6 months or
       less that ended because of the beneficiary’s impairment or the removal of special conditions
       related to the beneficiary’s impairment that are essential to performing the job. 13




9
 SSA, POMS, DI 13010.035 (February 15, 2013). Generally, beneficiaries are granted 9 trial work months (which
do not need to be consecutive) during a rolling 60-month period. Also, see 20 C.F.R. §404.1592.
10
  SSA, POMS, DI 13010.210 (January 13, 2010). The extended period of eligibility begins with the month
immediately following the completion of the trial work period and lasts 36 consecutive months.
11
     SSA, POMS, DI 10505.101 A (January 25, 2011).
12
     SSA, POMS, DI 10520.001 A (March 25, 2004).
13
     SSA, POMS, DI 24005.001 D1 (June 1, 2010).



Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)                                     2
SSA’s work incentive programs are complex and often difficult for disabled beneficiaries to
understand; therefore, many disabled beneficiaries fail to report earnings because they are afraid
the earnings will adversely affect their benefits. When disabled beneficiaries do not report
earnings, SSA must rely on the CDREO for an alert that it may be necessary to initiate a
work-related CDR. Earnings do not get posted to the MEF until after the year is complete;
therefore, SSA does not receive CDREO alerts until well after the beneficiary earns wages,
sometimes as long as 18 to 24 months later. As a result of this delay, overpayments may occur
because of the length of time between when the beneficiary worked and when SSA learned of the
work and processed a work-related CDR determination.

Prior Audit Reports
In a 2004 review, we determined that SSA had not evaluated all earnings reported to the MEF
between 1996 and 2000 for disabled individuals who were receiving Title II benefits as of
March 2002. 14 We estimated that approximately $1.37 billion in overpayments resulting from
about 63,000 disabled beneficiaries’ work activity was not identified.

Our 2009 audit found SSA did not evaluate all earnings reported on the MEF between 2001 and
2006 for disabled individuals who were receiving Title II benefits as of July 2007. 15 We
estimated approximately $1.34 billion in overpayments resulting from about 49,000 disabled
beneficiaries’ work activity was not identified. SSA agreed with the recommendations in both
prior reports (see Appendix B for recommendations included in our two prior reports).

To conduct our current review, we identified 27,383 disabled Title II beneficiaries in current pay
status as of July 2012 (from 1 Social Security number [SSN] segment) with earnings reported on
the MEF between 2007 and 2011 that may have affected their entitlement to benefits. 16 We
randomly selected 275 cases from this population for detailed analysis (see Appendix C for our
scope, methodology, and sample results).




14
  SSA OIG, Disabled Title II Beneficiaries with Earnings Reported on the Master Earnings File (A-01-03-13019),
July 2004.
15
  SSA OIG, Follow-up on Disabled Title II Beneficiaries with Earnings Reported on the Master Earnings File
(A-01-08-28075), April 2009.
16
  Beginning June 25, 2011, SSA assigns all SSNs randomly. Before June 25, 2011, SSA assigned SSNs within the
confines of the area numbers allocated to a particular State based on data keyed to SSA’s enumeration system. See
SSA, POMS, RM 10201.050 (June 23, 2011). The last 2 digits of the SSN were randomly assigned and could
contain digits “00” to “99.” SSNs can be categorized into 20 segments, each containing 5 sequential groups of these
digits. One segment is a representation of all 20 segments. For this audit, we selected SSNs ending with the digits
“35” to “39” and randomly sampled 275 cases from this segment. In total, we estimate there are about
547,660 beneficiaries in all 20 segments.



Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)                                       3
RESULTS OF REVIEW
SSA made efforts to reduce overpayments resulting from work activity. However, we found that
SSA did not evaluate all earnings posted to the MEF. Therefore, overpayments still occurred.

We estimate that about 119,500 disabled beneficiaries were overpaid approximately $1.02 billion
because of work activity. 17 SSA identified approximately $872.58 million of these overpayments
to about 107,500 beneficiaries; however, we estimate SSA did not detect approximately
$146.43 million in overpayments to about 13,900 beneficiaries. 18 (We estimate that, as of
April 2014, SSA recovered about $489.37 million in overpayments.)

Of the 275 beneficiaries in our sample,

    60 (22 percent) were overpaid $511,680 because of work activity; and

    215 (78 percent) were not overpaid despite having earnings posted to the MEF. 19

Beneficiaries Overpaid Because of Work Activity
In total, 60 beneficiaries in our sample were overpaid $511,680 because of work activity. 20 SSA
identified $438,152 in overpayments made to 54 beneficiaries; however, for 7 beneficiaries, SSA
did not evaluate all work activity and therefore we identified $73,528 in undetected
overpayments during our audit. 21




17
  When primary workers are ineligible for benefits because of work activity, any auxiliary beneficiaries (that is,
spouses and children) are also ineligible. Therefore, our overpayment calculations and estimates include
overpayments to the working beneficiaries as well as overpayments to auxiliary beneficiaries.
18
  The Government Accountability Office (GAO) issued a report in which it estimated SSA made $1.29 billion
disability benefit payments that were potentially improper to about 36,000 individuals as of January 2013.
However, GAO’s estimate included individuals who did not have a work-related CDR completed by SSA, which
would have identified potentially disqualifying work activity (such as a trial work period). See GAO, Disability
Insurance: Work Activity Indicates Certain Social Security Disability Insurance Payments Were Potentially
Improper, (GAO-13-635), August 2013.
19
  For example, earnings for 126 beneficiaries were below SGA amounts and therefore did not result in
overpayments. See Appendix D for additional reasons why beneficiaries were not overpaid despite their earnings.
20
  As of April 2014, SSA had recovered $245,733 (48 percent) of the $511,680 overpaid because of work from
52 beneficiaries. (The $245,733 only includes amounts successfully recovered by SSA—it does not include
amounts waived or deleted by the Agency.)
21
   In total, 60 beneficiaries were overpaid because of work activity. However, for one beneficiary, SSA identified
some of the overpayment resulting from work activity, but not all the overpayment; thus, one beneficiary is counted
in both the identified and undetected overpayment categories.



Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)                                          4
Beneficiaries with Undetected Overpayments
Of the 275 beneficiaries in our sample, SSA did not evaluate all work activity and/or post
overpayments for 7 (3 percent). This resulted in undetected overpayments totaling $73,528. 22

Undetected overpayment periods for the seven cases ranged from 1 to 18 months, with an
average of 9 months. Additionally, the undetected overpayments ranged from $728 to $28,275,
with an average of $10,504 and a median of $8,246.

Below are examples of these seven beneficiaries.

    One disabled beneficiary began receiving benefits in July 2006. This beneficiary had
     substantial earnings for 2007 and 2008. SSA processed benefit recalculations and increased
     his benefits each year based on his earnings; however, SSA did not evaluate the earnings to
     determine whether they were SGA. This case was referred to SSA in June 2013. In
     October 2013, SSA evaluated the earnings and posted a $28,275 overpayment for 18 months.
     Four other cases were similar to this case as SSA did not review earnings and post an
     overpayment because of work activity until after we referred the case in June 2013. The
     earnings in those three cases were for Tax Years 2007 through 2011.

     SSA improved the work CDR process in 2012 and 2013—described in the next section of
     this report. Had the Agency implemented these improvements sooner, it may have identified
     these four beneficiaries.

    In December 2012, SSA evaluated earnings for one disabled beneficiary and determined
     them to be SGA, resulting in the individual being overpaid for 24 months. SSA assessed a
     $6,282 overpayment in February 2013; however, the overpayment only represented 6 months
     of overpayments. In June 2013, we referred this case to SSA, and, in July 2013, the Agency
     assessed a $16,127 overpayment for 18 months, making the total overpayment $22,409 for
     24 months.

    In February 2013, SSA evaluated earnings for one disabled beneficiary and determined
     earnings to be SGA; however, the Agency did not assess an overpayment for the months
     determined to be SGA. Therefore, in June 2013, we referred the case to SSA, and, in
     August 2013, the Agency assessed an $8,246 overpayment for 6 months.

     When SSA determines a beneficiary is overpaid, the Agency needs to calculate and post the
     overpayment. 23 Additionally, as soon as possible, SSA must send written notice to the



22
  In June 2013, we referred 27 cases to SSA in which it appeared work activity was not evaluated. By March 2014,
SSA had evaluated the work activity for all cases referred, of which 20 did not result in SGA and 7 resulted in
undetected overpayments.
23
  SSA, Benefit Authorizer Basic Training Program, 2013. Also, see SSA, POMS, GN 02201.001 A
(July 20, 2010).



Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)                                    5
      beneficiary indicating the amount overpaid and his/her liability for repayment. 24 The Agency
      did not follow its policy and procedure for the two beneficiaries above, as SSA did not record
      the overpayment or issue an overpayment notice until after our referral.

Steps SSA Took to Improve Work CDRs
According to SSA, it made the following improvements to its work-related CDR processes and
management information.

     Established a dedicated staff that targets the oldest cases.

     Prioritized enforcement alerts (for cases with unreported earnings) by the amount of
      earnings—working the cases with highest earnings first to minimize overpayments.

     Improved communications between field offices and processing centers for priority cases that
      must be transferred between components.

     Established a standard report for work-related CDR management information and
      overpayments.

     Reorganized policy instructions so all work-related CDR issues are in a specific section. 25

     Created a section on its Intranet policy site that contains links to work-related CDR
      resources.

Additionally, SSA improved its CDREO alert process. In October 2010, SSA began a pilot in
one of the program service centers using a statistical predictive model to prioritize CDREO
alerts, working cases likely to incur large work-related overpayments first. The predictive model
scored cases based on such factors as historical earnings, prior work-related CDRs, previous
benefit increases due to earnings, overpayments, amount of monthly benefits, time on the rolls,
and type of impairment. In June 2011, SSA expanded the pilot to include three program service
centers, covering over 60 percent of the CDREO workload. According to SSA, it implemented
the predictive model nationwide in June 2013.

Furthermore, in October 2012, SSA began a new pilot to delay the benefit increase resulting
from an Automated Earnings Reappraisal Operation (AERO) re-computation for a disability
beneficiary with a pending work CDR. Using the CDREO predictive model, SSA identified the
top 10 percent of scored cases pending in the processing centers and field offices, matched these
cases against the October AERO increase cases, and identified cases that were due a benefit
increase based on the AERO re-computation. SSA delayed the AERO increase for these
high-scoring cases until its next AERO recomputation run in March 2013. This allowed SSA


24
     SSA, POMS, GN 02201.009 (April 15, 2011).
25
     SSA, POMS, DI 13010 (September 6, 2012).



Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)                          6
   employees 6 additional months to complete work CDRs before benefits were automatically
   increased. SSA is continuing this effort. In October 2013, the Agency identified a new sample
   of cases and planned to analyze the data in April 2014.

   Comparison of Sample Results of OIG Audits
   The improvements SSA made to the work-related CDR process are illustrated by comparing the
   sample results of our 2004 and 2009 audits to our current audit. 26 As Table 1 illustrates, when
   we conducted our 2004 audit, the average overpayment for our sample was just above
   $18,000 with an average of 22 months overpaid, as compared to our current review of an average
   overpayment just above $8,000 with an average of 9 months overpaid. Additionally, total
   overpayments decreased by about $1 million when comparing our 2004 audit to our current
   review. The decrease in total work-related overpayments is an indication of how SSA is working
   cases with highest earnings first to minimize overpayments.

                                    Table 1: Comparison of OIG Audits
                                   2004 Audit                     2009 Audit                   Current Audit
                            29,871 beneficiaries           25,904 beneficiaries           27,383 beneficiaries
Population (1 segment)      receiving benefits as of       receiving benefits as of       receiving benefits as of
                            March 2002                     July 2007                      July 2012
Years of Earnings on
                            1996 to 2000                   2001 to 2006                   2007 to 2011
MEF
Sample Size                 275 beneficiaries              275 beneficiaries              275 beneficiaries
Number of Beneficiaries
Overpaid Due to Work        79 beneficiaries               92 beneficiaries               60 beneficiaries
Activity
Overpayments Due to
                            $1,449,121                     $1,686,409                     $511,680
Work Activity
Overpayments Identified
                            $820,354 (57 percent)          $977,350 (58 percent)          $438,152 (86 percent)
by SSA
Overpayments
                            $628,767 (43 percent)          $709,059 (42 percent)          $73,528 (14 percent)
Undetected by SSA
Number of Months
                            1 to 123 months                1 to 90 months                 1 to 40 months
Overpaid
Average Number of
                            22 months                      19 months                      9 months
Months Overpaid
Range for Overpayments      $401 to $100,000               $440 to $108,417               $420 to $29,730
Average Overpayment         $18,343                        $18,331                        $8,114



   26
     SSA OIG , Disabled Title II Beneficiaries with Earnings Reported on the Master Earnings File (A-01-03-13019),
   July 2004; and Follow-up on Disabled Title II Beneficiaries with Earnings Reported on the Master Earnings File
   (A-01-08-28075), April 2009.



   Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)                                   7
CONCLUSION
Our current review estimates approximately $1.02 billion in overpayments existed because of
disabled beneficiaries’ work activity for Tax Years 2007 through 2011. SSA identified
approximately $872.58 million of these overpayments but $146.43 million went undetected.
Despite these overpayments, SSA made improvements to the work-related CDR process. The
average overpayment was $8,114 for 9 months (whereas the average overpayment was
$18,331 for 19 months in our 2009 audit). Therefore, SSA should continue allocating resources
to timely perform work-related CDRs and assess all overpayments resulting from work activity.

AGENCY COMMENTS
SSA reviewed the draft report but did not provide any comments. See Appendix E.




Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)                     8
                                        APPENDICES




Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)
Appendix A – BACKGROUND
Title II of the Social Security Act provides benefits to individuals who—having insured
themselves for benefits through sufficient, recent work under Social Security-covered
employment—have lost their ability to work because of a severe, long-term disability. 1 In
addition, the program provides benefits to disabled adult children and disabled widow(er)s of
insured workers. 2 The number of beneficiaries and total monthly benefits paid in
December 2012 is shown in Table A–1. 3

          Table A–1: Number of Disabled Beneficiaries and Total Monthly Benefits Paid
                                                                                            Benefits Paid
       As of December 2012                         Beneficiaries
                                                                                       (dollars in thousands)
      Disabled Workers                       8,826,591               87%               $9,977,027       92%
      Disabled Audit Children                1,006,676               10%                 $725,285         6%
      Disabled Widow(er)s                      255,472                3%                 $181,760         2%
      Total                                 10,088,739              100%              $10,884,072      100%

The Definition of Disability
The Social Security Administration (SSA) considers an individual to be disabled if he/she is
unable to engage in any substantial gainful activity (SGA) because of an impairment that (1) can
be expected to result in death or (2) has lasted (or can be expected to last) for a continuous period
of at least 12 months. 4

SGA
The Social Security Act grants SSA the authority to establish criteria for determining when
services performed or earnings derived from services demonstrate an individual’s ability to
engage in SGA. 5 The Agency defines SGA as work activity that involves significant physical or
mental activities performed for pay or profit. Work may be substantial even if it is seasonal or
part-time or if the individual does less, is paid less, or has less responsibility than in previous




1
  Social Security Act § 223 et seq., 42 U.S.C. § 423 et seq. Generally, when disabled workers are entitled to
benefits, their spouses and children may also be entitled as auxiliary beneficiaries. Social Security Act §§ 202 (b),
(c) and (d), 42 U.S.C. §§ 402 (b), (c) and (d).
2
    Social Security Act §§ 202 (d), (e) and (f), 42 U.S.C. §§ 402 (d), (e) and (f).
3
    SSA, Annual Statistical Report on the Social Security Disability Insurance Program, 2012, page 21.
4
    Social Security Act § 223(d)(1), 42 U.S.C. § 423(d)(1).
5
    Social Security Act § 223(d)(4)(A), 42 U.S.C. § 423(d)(4)(A).



Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)                                         A-1
work. Work activity is gainful if it is the kind of work usually done for pay or profit, whether or
not a profit is realized.

According to SSA, usually the best measurement of a person’s ability to work is the amount of
pay received. 6 For example, for Calendar Year 2013, the Agency generally considered earnings
of $1,040 per month to reflect an individual’s ability to engage in SGA. 7 However, the Agency
only considers wages earned through an individual’s own effort in determining whether the SGA
level is met. For example, if it is necessary for an employer to provide special help for an
individual to work, the value of such special assistance may be considered a subsidy and
deducted from earnings. In addition, impairment-related work expenses incurred by a disabled
individual are also deducted from earnings before determining whether earnings reflect SGA.
Therefore, SSA considers only the earnings based on the individual’s own productivity in
determining whether earnings reflect SGA.

How Work Affects Entitlement to Benefits
SSA encourages disabled individuals to return to work. 8 Congress has passed numerous
amendments to the Social Security Act with the intent to provide disabled individuals incentives
to return to work. 9

The Trial Work Period
The trial work period allows a disabled beneficiary the chance to test his/her ability to work and
hold a job without losing his/her disability benefits. During this period, the beneficiary may
perform services for compensation or gain and still be considered disabled. The trial work
period consists of 9 trial work months that do not have to be consecutive but must fall within a
60-consecutive month rolling period. 10




6
    SSA, POMS, DI 24001.025 A (January 5, 2007).
7
    SSA, POMS, DI 10501.015 B (November 8, 2012). Special rules apply to individuals who are blind.
8
 SSA, Annual Statistical Report on the Social Security Disability Insurance Program, 2012, page 6. Trial work
period and extended period of eligibility are just two examples of work incentives.
9
    SSA, POMS, DI 13010.001 (April 22, 2009).
10
     SSA, POMS, DI 13010.035 (February 15, 2013).



Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)                                     A-2
Extended Period of Eligibility
After completing the trial work period, the extended period of eligibility begins. The extended
period of eligibility provides a 36-month re-entitlement period during which a beneficiary can be
re-entitled to benefits if his/her work activity falls below SGA level. 11 The first time a
beneficiary works above the SGA level in the extended period of eligibility, the beneficiary no
longer meets the requirements for disability due to work and the disability ceases; however, SSA
continues paying disability benefits for the month the disability ceased and the following
2 months, which the Agency calls the grace period. Eligibility for benefits will not completely
terminate until the beneficiary has earnings above the SGA level after the 36-month
re-entitlement period of the extended period of eligibility. 12

Expedited Reinstatement
Certain previously entitled individuals may request expedited reinstatement (EXR) of their
Title II disability benefits when their medical condition no longer permits them to perform SGA.
EXR is a safety net for individuals who make use of SSA-administered work incentives,
successfully return to work, and, consequently, lose their entitlement to Title II disability
benefits. 13




11
     SSA, POMS, DI 13010.210 (January 13, 2010).
12
  SSA, POMS DI 13010.201 A (January 13, 2010). SSA reported that it terminated benefits to 38,228 disabled
beneficiaries during Calendar Year 2012 because the beneficiaries were performing SGA. (SSA, Annual Statistical
Report on the Social Security Disability Insurance Program, 2012, page 128.)
13
     SSA, POMS, DI 13050.001 (March 10, 2011).



Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)                                 A-3
Appendix B – STATUS OF RECOMMENDATIONS FROM PRIOR
             AUDITS
In July 2004, we issued a report, Disabled Title II Beneficiaries with Earnings Reported on the
Master Earnings File (A-01-03-13019). The following tables list the four recommendations
from this report, the Social Security Administration’s (SSA) actual/proposed actions when the
report was issued, and the status as of January 2014.

                                   Table B–1: Recommendation 1
 Recommendation - Review past cases where significant earnings are present on the
 Master Earnings File (MEF) and no determination has been made regarding trial work
 and/or substantial gainful activity (SGA).
                            SSA agreed to review cases with significant earnings on the
 SSA’s comments and/or
                            MEF where no determination had been made regarding trial
 actions from July 2004
                            work/SGA and take action where it was cost beneficial to do so
 report
                            and as resources permitted.
                            Although SSA originally agreed with this recommendation, the
 Status as of 2014          Agency later stated it would not be a prudent use of its limited
                            resources.

                                   Table B–2: Recommendation 2
 Recommendation – Ensure that future earnings enforcements are adequately controlled
 by management and resolved timely.
                         SSA agreed with this recommendation. The Agency stated it
                         was tracking earnings enforcement through the Continuing
                         Disability Review Enforcement Operation (CDREO). The
                         CDREO system was integrated with SSA’s Disability Control
                         File (DCF), which controls the earnings enforcement issues that
                         the CDREO system generates. Additionally, SSA was also
                         analyzing a comprehensive matching interface that would
 SSA’s comments and/or   provide verification of earnings for both Title II and XVI
 actions from July 2004  beneficiaries and ensure earnings enforcement actions generated
 report                  by the CDREO systems were controlled until completed.

                                 The Agency also stated it had initiated steps to improve and
                                 accelerate the process of wage reporting for individuals who
                                 returned to work. Additionally, SSA stated that their new
                                 national database, eWork, would provide a centralized location
                                 that would use evidence of work activity to schedule and process
                                 work–related continuing disability reviews (CDR).




Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)                    B-1
 Recommendation – Ensure that future earnings enforcements are adequately controlled
 by management and resolved timely.
                         In June 2013, SSA nationally implemented a statistical
                         predictive model to prioritize CDREO alerts, so the Agency
                         could work cases likely to incur large work-related
                         overpayments first. The predictive model scores cases on a
 Status as of 2014
                         variety of factors including but not limited to the following:
                         (1) historical earnings, (2) prior work-related CDRs,
                         (3) previous benefit increases due to earnings, and (4) type of
                         impairment.

                                   Table B–3: Recommendation 3
 Recommendation – Ensure that earnings reported on the MEF or disclosed on
 beneficiary-completed forms are evaluated when medical CDRs are performed or
 mailer CDR forms are received.
                           SSA agreed with this recommendation stating it would provide
                           employment support training to all direct service employees that
 SSA’s comments and/or     would help ensure all reported earnings would be evaluated.
 actions from July 2004    SSA also stated the DCF now had the ability to control both a
 report                    pending work issue and a pending medical issue at the same
                           time; whereas, before November 2002, the DCF could only
                           control one issue at a time.
                           SSA provided employment support training to all direct service
                           employees in fall 2003. Additionally, eWork was implemented
 Status as of 2014
                           nationally in 2004. This was a new system to control and
                           process disability work activity and work CDRs.

                                   Table B–4: Recommendation 4
 Recommendation – Ensure that earnings resulting in benefit increases are evaluated to
 determine whether trial work activity and/or SGA were performed.
                           SSA agreed with the recommendation and stated that by
                           enhancing its ability to control and timely resolve earnings
 SSA’s comments and/or     enforcements (as previously described, see recommendation
 actions from July 2004    two), SSA would also be able to ensure earnings resulting in
 report                    benefit increases would be evaluated. All earnings that would
                           indicate a return to work and result in a benefit increase would
                           trigger controlled earnings enforcement actions.




Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)                   B-2
 Recommendation – Ensure that earnings resulting in benefit increases are evaluated to
 determine whether trial work activity and/or SGA were performed.
                           In October 2012, SSA began a new pilot to delay the benefit
                           increase resulting from an Automated Earnings Reappraisal
                           (AERO) re-computation for a disability beneficiary with a
                           pending work-related CDR. SSA used the CDREO predictive
                           model to identify the top 10 percent of scored cases pending in
                           the processing centers and field offices, matched these cases
                           against the October AERO increase cases, and identified cases
 Status as of 2014
                           that were due benefit increases due to the AERO
                           re-computation. The Agency delayed the AERO increase for
                           these high-scoring cases until its next AERO recomputation run
                           in March 2013, allowing SSA employees 6 additional months to
                           conduct and complete a work-related CDR. In October 2013, the
                           Agency identified a new sample of cases and planned to analyze
                           the data in April 2014.

In April 2009, we issued a report, Follow-up on Disabled Title II Beneficiaries with Earnings
Reported on the Master Earnings File (A-01-08-28075). The following table lists the
recommendation from this report, SSA’s actual/proposed actions when the report was issued, and
the status as of January 2014.

                                   Table B–5: Recommendation 1
 Recommendation – Develop and implement a plan to allocate more resources to timely
 perform work-related CDRs—and assess overpayments resulting from work activity—
 for cases identified by the agency’s earnings enforcement process.
                              SSA agreed with the recommendation stating the resources
 SSA’s comments and/or
                              provided by the Recovery Act and SSA’s Fiscal Year (FY) 2009
 actions from April 2009
                              appropriations, field offices would be able to reduce the pending
 report
                              levels of workloads, including work CDRs.




Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)                   B-3
    Recommendation – Develop and implement a plan to allocate more resources to timely
    perform work-related CDRs—and assess overpayments resulting from work activity—
    for cases identified by the agency’s earnings enforcement process.

                                    SSA made the following improvements to their work-related
                                    CDR processes and management information:

                                    1. established a dedicated staff, which targets the oldest cases
                                       first;

                                    2. prioritized enforcement alerts (for cases with unreported
                                       earnings) by the amount of earnings and works the cases
                                       with highest earnings first to minimize overpayments;

                                    3. improved communications between field offices and
                                       processing centers for priority cases that must be transferred
                                       between components;
    Status as of 2014               4. established an agency standard report for work CDR
                                       management information and overpayments; and,

                                    5. reorganized policy instructions so all work-related CDR
                                       issues are in a specific section, 1

                                    6. created a section on its Intranet policy site which contains
                                       links to work-related CDR resources.

                                    On January 22, 2014, the Acting SSA Commissioner issued a
                                    message to employees noting that with funding in the FY 2014
                                    budget, which was recently signed by the President, the Agency
                                    will be able to expand its capacity to complete more
                                    cost-effective CDRs. 2




1
    SSA, POMS, DI 13010 (September 6, 2012).
2
    SSA, Commissioner’s Broadcasts, January 22, 2014.



Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)                            B-4
Appendix C – SCOPE AND METHODOLOGY
To accomplish our objective, we:

   Reviewed applicable sections of the Social Security Act and Social Security Administration’s
    (SSA) regulations, rules, policies, and procedures.

   Reviewed prior Office of the Inspector General reports.

   Obtained a file of all disabled Title II beneficiaries from 1 of 20 Social Security number
    segments who were receiving benefits as of July 2012. We then determined which of these
    beneficiaries had earnings reported on the Master Earning File (MEF) for years 2007 to
    2011. We further narrowed this population by excluding cases in which the beneficiaries
    were entitled to disability benefits based on blindness or the reported earnings were in the
    year of, or before, the beneficiaries’ current date of entitlement for benefits.

   Identified a population of 27,383 beneficiaries with earnings reported on the MEF between
    2007 and 2011 that may impact their entitlement to benefits.

   Selected a random sample of 275 cases from the population we identified for detailed
    analysis. Specifically, we analyzed available information on the Agency’s systems to
    determine whether SSA evaluated the reported earnings and adjusted benefit payments, as
    appropriate. For cases in which we needed additional information, we requested SSA’s
    assistance to determine whether the earnings represented work activity that affected
    entitlement to benefits. For cases in which overpayments resulted due to work activity, we
    determined the amount successfully recovered by SSA.

We conducted our audit between May 2013 and January 2014, in Boston, Massachusetts. The
principal entities audited were the Offices of Research, Demonstration and Employment Support,
and Disability Policy under the Office of the Deputy Commissioner for Retirement and
Disability Policy and the Office of Disability Determinations and SSA’s field offices and
program service centers under the Office of the Deputy Commissioner for Operations. 1 We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We tested the data obtained for our audit and determined them to be
sufficiently reliable to meet our objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.



1
 In December 2013, the Offices of Program Development and Research and Employment Support Programs
merged to become the Office of Research, Demonstration and Employment Support. Additionally, the Offices of
Disability Programs and Medical and Vocational Expertise merged to become the Office of Disability Policy. See
SSA Memorandum, Executive Personnel Assignments, December 11, 2013.



Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)                                 C-1
Sample Results
                                 Table C–1: Population and Sample Size
          Population (one segment)                                                                 27,383
          Sample Size                                                                                 275
          Estimated Number of Beneficiaries in the Universe
                                                                                                  547,660
          (Population of audited segment multiplied by 20)

                          Table C–2: Overpayments Due to Work Activity 2
                                                                      Number of
                                                                                              Dollars
                                                                     Beneficiaries
         Sample Results                                                         60              $511,680
         Point Estimate                                                      5,974           $50,950,344
          Projection Lower Limit                                             4,875           $37,253,121
          Projection Upper Limit                                             7,199           $64,647,568
         Estimate in 20 Segments (Point estimate
                                                                             119,480 $1,019,006,880
         multiplied by 20)
         Note: All projections are at the 90-percent confidence level.

    Table C–3: Overpayments Due to Work Activity Identified by SSA Prior to Our Audit
                                                                        Number of
                                                                                              Dollars
                                                                       Beneficiaries
          Sample Results                                                          54            $438,152
          Point Estimate                                                       5,377         $43,628,857
          Projection Lower Limit                                               4,325         $31,229,826
          Projection Upper Limit                                               6,565         $56,027,888
          Estimate in 20 Segments (Point estimate
                                                                              107,540      $872,577,140
          multiplied by 20)
          Note: All projections are at the 90-percent confidence level.




2
 When primary workers are ineligible for benefits because of work activity, any auxiliary beneficiaries (that is,
spouses and children) are also ineligible. Therefore, our overpayment calculations and estimates include
overpayments to the working beneficiaries as well as overpayments to auxiliary beneficiaries.



Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)                                         C-2
                         Table C–4: Overpayments Not Identified by SSA 3
                                                                          Number of
                                                                                           Dollars
                                                                         Beneficiaries
         Sample Results                                                              7        $73,528
         Point Estimate                                                           697      $7,321,487
         Projection Lower Limit                                                   331      $1,428,420
         Projection Upper Limit                                                  1291     $13,214,555
         Estimate in 20 Segments (Point estimate
                                                                               13,940    $146,429,740
         multiplied by 20)
         Note: All projections are at the 90-percent confidence level.

                    Table C–5: Overpayments Successfully Recovered by SSA
                                                                                    Dollars
                                     4
                   Sample Results                                                     $245,733
                   Point Estimate                                                  $24,468,704
                   Projection Lower Limit                                          $16,505,529
                   Projection Upper Limit                                          $32,431,879
                   Estimate in 20 Segments (Point estimate
                                                                                  $489,374,080
                   multiplied by 20)
                   Note: All projections are at the 90-percent confidence level




3
  The seven beneficiaries with undetected overpayments include one beneficiary for whom SSA identified some of
the overpayment resulting from work activity, but not all the overpayment.
4
 The $245,733 only includes amounts successfully recovered by SSA—it does not include amounts waived or
deleted by the Agency.



Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)                                 C-3
Appendix D – BENEFICIARIES NOT OVERPAID DESPITE
             EARNINGS
For 215 (or 78 percent) of the 275 cases in our sample, earnings reported on the Master Earnings
File did not result in overpayments. Table D–1 describes the various reasons why the
beneficiaries were not overpaid despite their earnings.

                    Table D–1: Reasons Why Beneficiaries Were Not Overpaid
                                                                                             Number of
                  Reasons Why Beneficiaries Were Not Overpaid
                                                                                            Beneficiaries
         Earnings were below Substantial Gainful Activity (SGA)
                                                                                                   126
         Amounts 1
         Earnings from trial work activity only                                                     58
         Earnings resulted from unsuccessful work attempts 2                                        12
         Earnings from subsidized work 3                                                             9
         Earnings were substantial, but the Social Security Administration
                                                                                                      5
         stopped benefits timely and no overpayments resulted
         Earning represented special wage payments                                                    4
         Earnings did not belong to the beneficiary                                                   1
         TOTAL                                                                                     215




1
 The Agency has criteria for determining when services performed or earnings derived from services demonstrate
an individual's ability to engage in SGA. (See SSA, POMS, DI 10500.000 (March 28, 2013)). For example, for
Calendar Year 2013, SSA generally considered earnings of $1,040 per month to reflect SGA.
2
  An unsuccessful work attempt is an effort to do substantial work but reduces to a non-SGA level after a short time
because of the individual’s disability. Work performed during an unsuccessful work attempt does not prevent a
finding of disability. (See SSA, POMS, DI 11010.145 (January 28, 2013)).
3
  If it is necessary for an employer to provide special help for an individual to work, the value of the special
assistance may be considered a subsidy and would not be counted when calculating an individual’s earnings to
determine whether an individual engaged above the SGA level. (See SSA, POMS, DI 24001.025
(January 5, 2007)).



Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)                                        D-1
           Appendix E – AGENCY COMMENTS




                                            SOCIAL SECURITY

MEMORANDUM


Date:      April 23, 2014                                                                Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Work Continuing Disability Reviews for Disabled
           Title II Beneficiaries with Earnings” (A-01-12-12142) -- INFORMATION

           Thank you for the opportunity to review the draft report. We agree with the report as written and
           offer no comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)                       E-1
Appendix F – MAJOR CONTRIBUTORS
Judith Oliveira, Director, Boston Audit Division

David Mazzola, Audit Manager

Frank Salamone, Senior Auditor

Kevin Joyce, IT Specialist

Brennan Kraje, Statistician




Work CDRs for Disabled Title II Beneficiaries with Earnings (A-01-12-12142)   F-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                    CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website
at http://oig.ssa.gov/audits-and-investigations/audit-reports/all. For notification of newly
released reports, sign up for e-updates at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
